SEC.gov |  Deterring Securities Recidivism
Search SEC Documents
Company Filings | More Search Options
Skip to Main Content
About
What We Do
Commissioners
Securities Laws
SEC Docket
Reports
Careers
Contact
Divisions
Corporation Finance
Enforcement
Investment Management
Economic and Risk Analysis
Trading and Markets
National Exam Program
All Divisions and Offices
Enforcement
Litigation Releases
Administrative Proceedings
Opinions and Adjudicatory Orders
Accounting and Auditing
Trading Suspensions
How Investigations Work
Administrative Law Judges
Regulation
Proposed Rules
Final Rules
Interim Final Temporary Rules
Other Orders and Notices
Self-Regulatory Organizations
Staff Interpretations
Education
Investor.gov
Check Out a Broker or Adviser
Investor Alerts and Bulletins
Fast Answers
File a Tip or Complaint
Publications
Filings
EDGAR Search Tools
Company Filings Search
How to Search EDGAR
Requesting Public Documents
Descriptions of Filing Types
Information for Filers
About EDGAR
News
Press Releases
Public Statements
Speeches
Testimony
Spotlight Topics
What's New
News Digest
Events
Webcasts
Special Studies
Deterring Securities Recidivism
Inspector General
About OIG Office of Audits Office of Investigations Semiannual Reports Testimony Other Publications References Links Relevant FOIA Documents Contact Us
This document is an HTML formatted version of a printed document.
The printed document may contain agency comments, charts, photographs,
appendices, footnotes and page numbers which may not be reproduced in this
electronic version.  If you require a printed version of this document
contact the United States Securities and Exchange Commission, Office of
Inspector General, Mail Stop 11-7, 450 Fifth Street N.W., Washington, D.C.
20549 or call (202) 942-4460.
DETERRING SECURITIES RECIDIVISM
Audit No. 360
March 17, 2003
EXECUTIVE SUMMARY
We reviewed the effectiveness of Enforcement's existing procedures to deter recidivism.  We also examined whether "best practices" from other organizations (e.g., federal agencies) would be feasible at the Securities and Exchange Commission (SEC).  We found that, while the SEC does not have a formal program to deter recidivism, it does use some procedures that might deter recidivism.SCOPE During the audit, we interviewed staff from the SEC, the National Association of Security Dealers (NASD), and the following federal agencies: Department of Justice, Environmental Protection Agency, Commodities Futures Trading Commission, Federal Trade Commission (FTC), Federal Communications Commission, and the Equal Employment Opportunity Commission (EEOC).  We also reviewed recent SEC Enforcement actions and supporting documentation, among other procedures. The audit was performed from July 2002 to November 2002 in accordance with generally accepted government auditing standards. AUDIT RESULTSBased on our research and other audit work, we identified some methods1 and concepts that Enforcement management could potentially implement to further deter recidivism, which would enhance investor protection.  The FTC has implemented a program to target recidivism. FTC staff believes that its program has reduced recidivism.  Other agencies have procedures that could be used to deter recidivism.  For instance, the EEOC sometimes requires an employer to give employees a copy of an Order indicating past violations.  The SEC sometimes seeks similar relief.  For instance, an Investment Advisor sometimes is required to give its clients and prospective clients a copy of an Order indicating past violations.We discussed our observations with senior Enforcement management.  They are considering whether any of the procedures would be practical to implement.1  Some of the methods could also be used to deter securities fraud in general.
Site Map
Accessibility
Contracts
Privacy
Inspector General
Agency Financial Report
Budget & Performance
Careers
Contact
FOIA
No FEAR Act & EEO Data
Whistleblower Protection
Open Government
Plain Writing
Links
Investor.gov
USA.gov
U.S. Securities and Exchange Commission
ABOUT
DIVISIONS
ENFORCEMENT
REGULATION
EDUCATION
FILINGS
NEWSROOM
Inspector General
About OIG
Office of Audits
Office of Investigations
Semiannual Reports
Testimony
Other Publications
References Links
Relevant FOIA Documents
Contact Us